Nos. 20A71, 20A72

In the Supreme Court of the United States
PATSY J. WISE, et al.,
APPLICANTS,
V.

DAMON CIRCOSTA, in his official capacity as Chair of the
State Board of Elections, et al.,
RESPONDENTS.
TIMOTHY K. MOORE, in his official capacity as Speaker of the
North Carolina House of Representatives, et al.,
APPLICANTS,
V.

DAMON CIRCOSTA, in his official capacity as Chair of the
State Board of Elections, et al.,
RESPONDENTS.
CERTIFICATE OF SERVICE
In accordance with Sup. Ct. R. 29, I certify that a copy of the Motion For Leave
to File and Brief of the District of Columbia and the States of California, Connecticut,
Illinois, Maryland, Massachusetts, Minnesota, Nevada, New Jersey, New Mexico,
Oregon, Pennsylvania, Vermont, Virginia, and Washington as Amici Curiae was
electronically filed and hand-delivered to this Court, and also served by email and
first-class mail on the following counsel:
WISE APPLICANTS

RESPONDENTS

Bobby R. Burchfield
Counsel of Record
KING & SPALDING LLP
1700 Pennsylvania Avenue, NW
Washington, D.C. 20006
bburchfield@kslaw.com

Alexander McClure Peters
Special Deputy Attorney General
Counsel of Record
NORTH CAROLINA
DEPARTMENT OF JUSTICE
P.O. Box 629
Raleigh, NC 27602-0629
apeters@ncdoj.gov

R. Scott Tobin
TAYLOR ENGLISH DUMA LLP
4208 Six Forks Road, Suite 1000
Raleigh, NC 27609
stobin@taylorenglish.com

INTERVENOR-RESPONDENTS

David H. Thompson
Counsel of Record
Peter A. Patterson
Nicole J. Moss
John W. Tienken
Nicholas A. Varone
COOPER & KIRK PLLC
1523 New Hampshire Avenue, NW
Washington, D.C. 20036
dthompson@cooperkirk.com

Marc E. Elias
Counsel of Record
Uzoma N. Nkwonta
John Michael Geise
Ariel Brynne Glickman
Jyoti Jasrasaria
Lalitha Devi Madduri
PERKINS COIE LLP
700 13th Street, NW, Suite 800
Washington, D.C. 20005-2011
melias@perkinscoie.com
unkwonta@perkinscoie.com
jgeise@perkinscoie.com
aglickman@perkinscoie.com
jjasrasaria@perkinscoie.com
lmadduri@perkinscoie.com

Nathan A. Huff
PHELPS DUNBAR LLP
4140 ParkLake Avenue, Suite 100
Raleigh, NC 27612
nathan.huff@phelps.com

Molly Mitchell
PERKINS COIE LLP
1111 West Jefferson Street, Suite 500
Boise, ID 83702
mmitchell@perkinscoie.com

MOORE APPLICANTS

Burton Craige
Narenda K. Ghosh
Paul E. Smith
PATTERSON HARKAVY LLP
100 Europa Drive, Suite 420
Chapel Hill, NC 27517
bcraige@pathlaw.com
nghosh@pathlaw.com
psmith@pathlaw.com

2

AMICUS TRUE THE VOTE, INC.
James Bopp Jr.
Counsel of Record
THE BOPP LAW FIRM PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
jboppjr@aol.com

Dated: October 24, 2020

/s/ Loren L. AliKhan
LOREN L. ALIKHAN
Solicitor General
Counsel of Record
Office of the Attorney General
for the District of Columbia
400 6th Street, NW, Suite 8100
Washington, D.C. 20001
(202) 727-6287
(202) 730-1864 (fax)
Loren.AliKhan@dc.gov

3

